No. 19-1166
IN THE

Supreme Court of the United States
————
DINÉ CITIZENS AGAINST RUINING OUR ENVIRONMENT,
SAN JUAN CITIZENS ALLIANCE; AMIGOS BRAVOS;
SIERRA CLUB; AND CENTER BIOLOGICAL DIVERSITY,
Petitioners,
v.
NAVAJO TRANSITIONAL ENERGY COMPANY, LLC;
ARIZONA PUBLIC SERVICE COMPANY;
BUREAU OF INDIAN AFFAIRS; U.S. DEPARTMENT
OF THE INTERIOR; U.S. OFFICE OF SURFACE MINING
RECLAMATION AND ENFORCEMENT; U.S. BUREAU OF
LAND MANAGEMENT; DAVID BERNHARDT, IN HIS
OFFICIAL CAPACITY AS SECRETARY OF THE INTERIOR;
U.S. FISH AND WILDLIFE SERVICE,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
————
BRIEF IN OPPOSITION
————
SARA KOBAK
Counsel of Record
AUKJEN T. INGRAHAM
BRIEN J. FLANAGAN
SARAH ROUBIDOUX LAWSON
SCHWABE, WILLIAMSON &
WYATT, P.C.
1211 SW Fifth Ave., Ste. 1900
Portland, Oregon 97204
(503) 222-9981
skobak@schwabe.com
Counsel for Respondent
Navajo Transitional
Energy Co. LLC
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
Whether the Ninth Circuit properly determined that
Navajo Transitional Energy—an arm of the Navajo
Nation—was a required and indispensable party
under Federal Rule of Civil Procedure 19 in an action
to void the Navajo Nation’s legal right to operate the
Navajo Mine on its trust lands, and to invalidate the
Navajo Nation’s existing lease and rights-of-way
agreements for related facilities.

(i)

ii
RULE 29.6 STATEMENT
Navajo Transitional Energy Company (Navajo
Transitional Energy or NTEC) is a wholly owned
Navajo corporation formed under the Navajo Nation
Limited Liability Company Act. The Navajo Nation is
Navajo Transitional Energy’s sole owner.

iii
RELATED PROCEEDINGS
To counsel’s knowledge, there are no related proceedings.

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

RULE 29.6 STATEMENT ...................................

ii

RELATED PROCEEDINGS ...............................

iii

TABLE OF AUTHORITIES ................................

vi

INTRODUCTION ................................................

1

STATEMENT ......................................................

5

A. History of the Navajo Mine and Plant .....

5

B. Navajo Transitional Energy .....................

7

C. Federal Approvals .....................................

11

D. Lower Court Decisions..............................

13

REASONS FOR DENYING THE PETITION ....

18

I. The Decision Below Is Correct .................

18

II. There Is No Circuit Split ..........................

27

III. This Case Is a Poor Vehicle for Review ...

32

CONCLUSION ....................................................

33

(v)

vi
TABLE OF AUTHORITIES
CASES

Page(s)

Alto v. Black,
738 F.3d 1111 (9th Cir. 2013) ....... 22, 26, 27, 28
Am. Greyhound Racing, Inc. v. Hull,
305 F.3d 1015 (9th Cir. 2002) ................... 20, 25
Askew v. Sheriff of Cook County, Ill.,
568 F.3d 632 (7th Cir. 2009) .....................

19

Baker Group, L.C. v. Burlington N. &
Santa Fe Ry. Co.,
451 F.3d 484 (8th Cir. 2006) .....................

19

Cachil Dehe Band of Wintun Indians of
the Colusa Indian Cmty. v. California,
547 F.3d 962 (9th Cir. 2008) ..................... 15, 19
Confederated Tribes of Chehalis Indian
Reservation v. Lujan,
928 F.2d 1496 (9th Cir. 1991) ................... 19-20
Fluent v. Salamanca Indian Lease Auth.,
928 F.2d 542 (2d Cir. 1991) ......................

20

Jeffries v. Ga. Residential Fin. Auth.,
678 F.2d 919 (11th Cir. 1982) ................... 30, 31
Kansas v. United States,
249 F.3d 1213 (10th Cir. 2001) ................. 28, 29
Kescoli v. Babbitt,
101 F.3d 1304 (9th Cir. 1996) ..................passim
Kettle Range Conservation Group
v. United States BLM,
150 F.3d 1083 (9th Cir. 1998) ...................

25

Keweenaw Bay Indian Comm. v. Michigan,
11 F.3d 1341 (6th Cir. 1993) .....................

25

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Makah Indian Tribe v. Verity,
910 F.2d 555 (9th Cir. 1990) ..................... 19, 26
Manygoats v. Kleppe,
558 F.2d 556 (10th Cir. 1977) ................... 28, 29
Nat’l Licorice Co. v. Nat’l Labor
Relations Board,
309 U.S. 350 (1940) ............................. 17, 24, 25
Northern Alaska
Environmental Ctr. v. Hodel,
803 F.2d 466 (9th Cir. 1986) .....................

26

Ramah Navajo School Board, Inc. v. Babbitt,
87 F.3d 1338 (D.C. Cir. 1996) ...................

30

Republic of Philippines v. Pimentel,
553 U.S. 851 (2008) ............................. 16, 19, 20
Sac and Fox Nation of Missouri v. Norton,
240 F.3d 1250 (10th Cir. 2001) ................. 28, 29
School District of Pontiac v. Secretary
of the U.S. Department of Education,
584 F.3d 253 (6th Cir. 2009) ..................... 30, 31
Shermoen v. United States,
982 F.2d 1312 (9th Cir. 1992) ................... 17, 25
Southwest Center for Biological
Diversity v. Babbitt,
150 F.3d 1152 (9th Cir. 1998) ...................

22

Thomas v. United States,
189 F.3d 662 (7th Cir. 1999) .....................

27

Trbovich v. United Mine Workers of Am.,
404 U.S. 528 (1972) ...................................

23

viii
TABLE OF AUTHORITIES—Continued
Page(s)
White v. Univ. of Cal.,
765 F.3d 1010 (9th Cir. 2014) ................... 15, 20
Wichita & Affiliated Tribes of Okla. v. Hodel,
788 F.2d 765 (D.C. Cir. 1986) ...................

26

FEDERAL STATUTES
25 U.S.C. § 323 .............................................

11

25 U.S.C. § 415 .............................................

11

Administrative Procedure Act,
5 U.S.C. § 701 et seq. ................................passim
Indian Gaming Regulatory Act,
25 U.S.C. § 2701 et seq. .............................

28

National Environment Policy Act of 1969,
42 U.S.C. §§ 4321 et seq. ............... 12, 14, 26, 29
No Child Left Behind Act,
20 U.S.C. § 6301 et seq. .............................

31

Surface Mining Control and Reclamation
Act of 1977, 30 U.S.C. §§ 1201 et seq. ......

11

Treaty between United States of America
and the Navajo Tribe of Indians (June 1,
1868), 15 Stat. 667 ....................................

5

Treaty with the Navaho (Sept. 9, 1849),
9 Stat. 974 .................................................

5

ix
TABLE OF AUTHORITIES—Continued
TRIBAL STATUTES

Page(s)

Navajo Nation Council Resolution
No. CAP-20-13 (April 29, 2013) ................

8

Navajo Nation Council Resolution
No. CAP-34-80 (April 29, 1980) ................

7

Navajo Nation Council Resolution
No. CAP-50-13 (Oct. 24, 2013)................ 1, 7, 11
Navajo Nation Council Resolution
No. CAP-58-13 (Oct. 24, 2013) ..................

8

RULES
Fed. R. Civ. P. 12(b)(7) ................................

13

Fed. R. Civ. P. 19 .........................................passim
Fed. R. Civ. P. 19(a).....................................passim
Fed. R. Civ. P. 19(a)(1) .................................

20

Fed. R. Civ. P. 19(a)(1)(B) ............................

13

Fed. R. Civ. P. 19(b).....................................passim
Fed. R. Civ. P. 19(b)(1)-(4) ............................ 16, 20
OTHER AUTHORITIES
Navajo Department of Health, Dikos
Ntsaaígíí-19, https://www.ndoh.navajonsn.gov/COVID-19 (June 1, 2020) ............

5

INTRODUCTION
For over 50 years, the Navajo Nation has relied on
mining and energy operations on its trust lands as a
cornerstone of the Navajo economy and as a means for
funding essential public services for the Navajo people.
In addition to creating hundreds of well-paying jobs
and providing opportunities for tribal members
to build stable careers with their families on the
Navajo Nation, revenues from those mining and
energy operations make up more than a full third of
the Navajo Nation’s total general fund.
Before the last decade, the Navajo Nation stayed
outside of the ownership and operation of the energy
facilities on its trust lands. Starting with its first
formal tribal energy policy in 1980, however, the
Navajo Nation identified greater control over its
own natural resources and greater self-determination
over its own energy development as critical sovereign
interests. In 2013, as an important step towards
achieving those interests, the Navajo Nation created a
new tribal entity—Navajo Transitional Energy or
NTEC—to purchase back and operate the Navajo
Mine on its trust lands as part of a comprehensive
energy policy “to build true economic sovereignty” and
“to promote greater self-determination for future
generations of Diné.” NTEC App. 16, Navajo Nation
Council Resolution No. CAP-50-13 (Oct. 24, 2013).1 To
facilitate the purchase of the Navajo Mine, the Navajo
Nation invested millions of dollars into Navajo
Transitional Energy and also authorized it to pledge a
1

“NTEC App.” refers to the appendix of Navajo legislative
materials submitted with NTEC’s brief in the Ninth Circuit. CA9
ECF No. 34. “ER” refers to petitioners’ excerpts of record, and
“SER” refers to NTEC’s supplemental excerpts of record. CA9
ECF Nos. 18, 35.

2
substantial catalog of tribal assets—including the
Navajo Mine itself—as security to obtain necessary
financing for its startup and operation costs.
The importance of the Navajo Mine to the Navajo
Nation—and also the adjacent Four Corners Power
Plant (Plant) with which the Navajo Mine operates—
cannot be overstated. In addition to being a major
source of revenues for the functioning of Navajo Nation
government and the provision of public services for the
Navajo people, the Navajo Mine and the Plant are the
lifeblood of the Navajo economy. The enormous
investments that the Navajo Nation has made into the
Navajo Mine and Navajo Transitional Energy also are
part of a broader tribal undertaking to diversify and
transition the Navajo energy economy to renewable
energy development and new clean-coal technologies
based on the abundant natural resources on Navajo
trust lands. If the operations of the Navajo Mine and
the Plant were disrupted at this time, the solvency of
the Navajo Nation would be threatened, and the
Navajo Nation’s investment in the Navajo Mine and
Navajo Transitional Energy almost certainly would be
lost. Scores of tribal members and their families also
likely would be displaced from the Navajo Nation
community—perhaps permanently—with there being
no other comparable employment opportunities available
on the Navajo Nation.
The issue presented in this case is whether the lower
courts properly considered the interests of the Navajo
Nation and decided that Navajo Transitional Energy,
acting as an arm of the Navajo Nation, was a required
and indispensable party under Federal Rule of Civil
Procedure 19 in an action to halt operations at the
Navajo Mine and adjacent Plant. Although petitioners
represent that they sought only limited prospective

3
relief directed at federal agencies and did not seek to
invalidate or modify any contracts of the Navajo
Nation or Navajo Transitional Energy (Pet. 3, 8, 14),
that is not correct. Far from seeking only prospective
relief to avoid interference with Navajo rights, the
very purpose of this action was to take away Navajo
Transitional Energy’s legal right to operate the Navajo
Mine and to invalidate the Navajo Nation’s existing
lease and rights-of-way agreements. Petitioners entirely
disregard the Navajo Nation’s sovereign and economic
interests in those legal and contractual rights, making
no effort at all to explain why those interests are not
substantial.
Instead of addressing the Navajo Nation’s substantial interests—and the fact-specific nature of the Rule
19 decision in this case—petitioners attempt to portray
the Ninth Circuit’s decision as sharply departing from
other precedents and as generating a new circuit split
about Rule 19’s application to cases under the
Administrative Procedure Act (APA), 5 U.S.C. § 701 et
seq. Neither is correct. In reaching its decision, the
Ninth Circuit faithfully applied the settled framework
for joinder determinations under Rule 19 to the particular facts of this case. Although petitioners seek to
rely on different outcomes in other cases as evidence
of a circuit split, those different outcomes are simply
the result of the fact-specific nature of the Rule 19
inquiry—not the result of different legal tests.
Petitioners also are wrong in asserting that the
federal defendants could adequately represent Navajo
interests. Although petitioners insist that the federal
agencies and Navajo Transitional Energy have completely
overlapping interests in the challenged approvals, the
lower courts correctly rejected that argument based on
the facts of this case. Unlike the federal defendants,

4
the Navajo Nation and Navajo Transitional Energy
have critical sovereign interests in ensuring that the
Navajo Mine and the Plant continue to operate without
disruption. The federal defendants do not share those
same interests—and, indeed, those defendants did
not even appear in the Ninth Circuit proceedings.
Although the United States appeared as an amicus
curiae, its brief reflected the very different nature
of the federal interests, asserting that invalidating
approvals for the Navajo Mine and the Plant would
“not necessarily [cause] long-term prejudice to the
tribe” in stark contradiction to the undisputed factual
findings in the record about the serious risks of
irreparable harm to the Navajo Nation and its people.
Amicus United States C.A. Br. 16; Pet. App. 37a-38a.
Finally, there is no merit to petitioners’ claim that
the Ninth Circuit’s decision will operate to foreclose all
environmental challenges to federal agency actions
related to activities on Indian trust lands. Contrary to
petitioners’ characterization of the decision as creating
some kind of new blanket rule, the Ninth Circuit’s
decision here was case-specific and was based on the
settled precedents applying Rule 19. The Ninth
Circuit repeatedly has found that Indian tribes are not
required parties under Rule 19 on different facts—
either because of the nature of the tribe’s interests,
or because the tribe’s interests could be adequately
represented by federal agencies in its absence. In this
case, the Ninth Circuit concluded that Navajo
Transitional Energy was a required party based on the
nature of petitioners’ requested relief and the critical
legal and sovereign rights at stake. Although petitioners try to argue otherwise, Rule 19 requires that type
of case-specific inquiry, and there is no exception to
Rule 19’s joinder requirements simply because a case
implicates some public concern.

5
As the Ninth Circuit correctly recognized, the
Navajo Nation’s interests here are “tied to its very
ability to govern itself, sustain itself financially, and
make decisions about its own natural resources.” Pet.
App. 22a-23a. Those interests are even more crucial
now, with the Navajo Nation and the Navajo people
experiencing devastating losses and a still-unfolding
crisis as the Nation has become the epicenter of the
COVID-19 pandemic with the highest per-capita infection rate in the United States. See Navajo Department
of Health, Dikos Ntsaanígíí-19, https://www.ndoh.
navajo-nsn.gov/COVID-19 (last visited June 1, 2020).
The petition should be denied.
STATEMENT
A. History of the Navajo Mine and Plant
1. The Navajo Nation is a sovereign and federally
recognized Indian tribe, securing the exclusive occupation and use of its homelands in treaties entered with
the United States in 1849 and 1868. See Treaty with
the Navaho (Sept. 9, 1849), 9 Stat. 974 (Treaty of
1849); Treaty between United States of America and
the Navajo Tribe of Indians (June 1, 1868), 15 Stat.
667 (Treaty of 1868). Spanning areas of Arizona, New
Mexico, and Utah, the Navajo Nation encompasses
over 17 million acres of trust lands. Pet. App. 6a;
SER246, 387. In addition to being the largest Indian
tribe in terms of land size, the Navajo Nation also is
the largest Indian tribe in terms of population, with
more than 320,000 enrolled tribal members and roughly
174,000 tribal members living on the Navajo Nation.
SER314, 406. The Navajo Nation is served by a democratically elected, tripartite form of government with
an executive branch (headed by the President of the

6
Navajo Nation), a legislative branch (Navajo Nation
Council), and a judicial branch (Navajo Nation Courts).
2. For decades, the Navajo Nation has relied on
energy resources on its trust lands as a critical part of
its economy and as a means to ameliorate the very
difficult conditions facing the Navajo people. SER50,
134-40. Starting in the late 1950s, the Navajo Nation
granted leases for non-Indian entities to undertake
mining activities at the Navajo Mine on its trust lands.
Pet. App. 6a; SER134. A short time later, with the
development of the coal supply from the Navajo Mine,
the Navajo Nation entered into leases with respondent
Arizona Public Service Company (APS) and others for
the construction and operation of the Plant adjacent to
the Navajo Mine. Id. The Navajo Mine is the sole coal
supplier to the Plant, and the Plant is the Navajo
Mine’s sole customer. Pet. App. 7a. The Navajo Mine
and the Plant both are located entirely on Navajo trust
lands. Pet. App. 6a.
Today, the Navajo Mine and the Plant generate
electricity for the Four Corners region of the southwestern United States. SER2, 134-38. As a result of
the enormous investments made in reliance of the federal approvals at issue in this case, the Plant currently
operates with state-of-the-art emission controls—
called selective catalytic reduction (SCR) devices—
that were installed following the issuance of the final
Record of Decision (ROD) at the steep cost of roughly
$500 million. SER203, 244. The new SCR controls
and other operational changes drastically cut the Plant’s
emissions from previous historical levels cited by petitioners, including an 87-percent reduction in nitrogen
oxides emissions, a 79-percent reduction in selenium
emissions, and a 58-perecent reduction in particulate
matter emissions. SER210. Other improvements

7
have reduced the Plant’s water consumption by roughly
20 percent. SER210. Navajo Transitional Energy and
APS also are making investments of $15 to $20 million
over the life of the project on different species
conservation and recovery measures. APS-SER67-71.
None of those costly improvements and conservation
efforts would have been undertaken without the
federal approvals at issue in this case.
B. Navajo Transitional Energy
Since the Navajo Nation Council adopted its first
energy policy in 1980, the Navajo Nation has pursued
a goal to obtain greater control over its natural resources
and to promote economic development on the Navajo
Nation with increased participation in energy markets.
NTEC App. 1, Navajo Nation Council Resolution No.
CAP-34-80 (April 29, 1980), Navajo Nation Energy
Policy of 1980. That goal finally was realized in 2013
when, after decades of leasing its coal resources, the
Navajo Nation was presented with an unprecedented
opportunity to purchase back the Navajo Mine for its
own ownership and operation.
1. The decision to take over the operations of the
Navajo Mine was a momentous step for the Navajo
Nation. Around this time, the Navajo Nation Council
and the President of the Navajo Nation approved the
adoption of the Navajo Nation Energy Policy of 2013—
the first formally approved Navajo energy policy since
1980—to develop “a comprehensive energy strategy”
for the Navajo Nation to “establish energy independence and build its economy for future generations” of
the Navajo people. NTEC App. 16, Navajo Nation
Council Resolution No. CO-50-13 (Oct. 24, 2013). The
policy established a goal of promoting Navajo ownership of energy projects based on a diverse portfolio
of sustainable trust resources, including the use of

8
emerging clean-coal technologies and renewable energy
resources, such as wind and solar farms, on Navajo
Nation lands. Id. at 13-28. The policy additionally
created a new executive agency—the Navajo Energy
Office—to “facilitate energy development on the
Nation” and to develop a long-term strategic plan “to
stimulate increased revenues from energy projects,
spur energy infrastructure development, and diversify
the Navajo energy economy.” Id. at 27.
To enable the acquisition of the Navajo Mine and to
advance its other energy-related goals, the Navajo Nation
Council and the President of the Navajo Nation approved
legislation to create Navajo Transitional Energy, or
NTEC, as an arm of the Navajo Nation with its tribal
sovereign immunity. Pet. App. 24a; SER93-128, Navajo
Nation Council Resolution No. CAP-20-13 (April 29,
2013), amended by, Navajo Nation Council Resolution
No. CAP-58-13 (Oct. 24, 2013). The key purpose of Navajo
Transitional Energy is “to protect and promote the
economic and financial interest of the Nation and the
Navajo people, while remaining dedicated to responsible management of the Nation’s natural resources.”
SER2; see SER5-8. Navajo Transitional Energy also
serves to advance the broader goal for the Navajo Nation
to become a major provider of alternative renewable
energy resources for the region, as defined in the Navajo
Nation Energy Policy of 2013. NTEC App. 5-28. To
fund that goal, Navajo Transitional Energy is required
to invest “no less than ten percent (10%) of its available
Net Income in a given year into research and development
of renewable and alternative sources of energy, storage,
and transmission technologies and facilities.” SER39.
To create Navajo Transitional Energy, the Navajo
Nation contributed millions of dollars to its startup
costs. SER6. The Navajo Nation also authorized Navajo

9
Transitional Energy to purchase the Navajo Mine
and related leasehold rights for $85 million. Pet. App.
37a. With authorization from the Navajo Nation,
Navajo Transitional Energy then obtained a loan for
roughly $115 million to pay off the original note and to
secure a line of credit for future working capital. Id.
The loan is secured by Navajo Transitional Energy’s
entire catalog of assets, including the Navajo Mine
itself. Id. A default on the loan would result in the
loss of the Navajo Mine and the millions of dollars that
the Navajo Nation invested in Navajo Transitional
Energy, in addition to the loss of billions of dollars in
the unattained future revenues for the Navajo Nation.
SER4.
2. With Navajo Transitional Energy’s purchase of
the Navajo Mine, the Navajo Mine and the Plant are
expected to provide stable employment income for
hundreds of Navajo people and to maintain funding
needed for the Navajo Nation’s essential public services.
SER155-56, 335-36. In the final ROD at issue in this
action, the federal agencies estimated that the Navajo
Nation will receive $40 to $60 million annually in
direct revenues from the operations at the Navajo
Mine and the Plant during the life of the project, with
those revenues providing approximately 35 percent of
the Navajo Nation’s total general fund. SER155.
Over the life of the project, “a lower end estimate (i.e.,
unadjusted) of [the] economic activity [generated by
the Navajo Mine and the FCPP] is approximately $11.5 billion in direct revenue to the Navajo Nation, $4.1
billion in labor income, and $10.8 billion in [gross state
product].” Id.
If operations at the Navajo Mine and the Plant were
stopped before the Navajo Nation’s development of
viable alternative energy projects, the harm to the

10
Navajo Nation cannot be overstated. More than 36
percent of Navajo people live below the federal poverty
level, with the Navajo Nation persistently having the
highest unemployment rate in the region and few
private-sector employers. SER45-46; 323-24. Many
decades of inadequate funding and support have
deprived the Nation of basic infrastructure and access
to services, particularly in more remote areas, with
“[o]ver 20 percent of Navajos liv[ing] in houses without
plumbing, telephones, kitchen facilities, and electricity[.]”
SER323. Essential public services—including education,
emergency medical services, emergency management,
police services, fire and rescue services, and highway
safety—are funded through revenues that would be
lost if the operations of the Navajo Mine and the Plant
were interrupted. SER328-32.
In addition to those impacts on the Navajo Nation’s
government and Navajo public services, disruption in
the operations of the Navajo Mine and the Plant also
would have a devastating impact on the already-struggling Navajo economy. If operations at the Navajo
Mine and the Plant were halted, the federal agencies
estimated that the Navajo Nation would lose approximately $338 million in economic activity, “including
the loss of a total of 2,293 jobs and the associated $159
million in lost labor income.” SER57. The loss for
Navajo tribal members directly employed at the
Navajo Mine and the Plant “would include the loss of
606 power plant and mine jobs and $81.5 million (2011
dollars) in income for those workers.” Id.
Because of the scant employment opportunities
currently available on the Navajo Nation, a closure of
the Navajo Mine and the Plant would have a huge
impact on Navajo families and community stability.
Scores of Navajo tribal members and their families

11
likely would be displaced—perhaps permanently.
Such a result would defeat a key objective of the
Navajo Nation Energy Policy of 2013 and the creation
of Navajo Transitional Energy, which was to enable
“Navajos to build stable careers while remaining close
to their families” and to “build the strength of our
families and communities that have been fragmented
by the need for our people to find work” outside of the
Navajo Nation. SER48-49; see also NTEC App. 14. In
addition to losing control over its own natural resources,
the Navajo Nation also would lose the critical stream
of revenues needed to accomplish its goal to create a
diverse and sustainable energy economy. SER4, 405.
And the Navajo Nation would lose control of the
Navajo Mine and its plan for achieving greater economic sovereignty and self-determination for future
generations of Diné. Id.
C. Federal Approvals
Because the United States holds the Navajo Nation
lands in trust for the tribe, the Bureau of Indian
Affairs (BIA) must approve the lease and rights-of-way
agreements for the operation of the Plant. See 25
U.S.C. §§ 323, 415 (requiring same). The Department
of the Interior’s (DOI) Office of Surface Mining
Reclamation and Enforcement (OSMRE) also is responsible for issuing and renewing federal permits for the
Navajo Mine under the Surface Mining Control and
Reclamation Act of 1977 (SMCRA), 30 U.S.C. §§ 1201
et seq.
1. In 2012, APS and Navajo Transitional Energy’s
predecessor-in-interest started the process to renew
the lease, rights-of-way agreements, and permits for
the Navajo Mine and the Plant. Pet. App. 7a-8a.

12
Because of the federal approvals required by statute
for transactions on Indian trust lands, the requests
triggered an exhaustive, three-year review involving
multiple federal and Navajo agencies under the
National Environment Policy Act of 1969 (“NEPA”),
42 U.S.C. §§ 4321 et seq. In July 2015—after public
input and the issuance of an environmental impact
statement and biological opinion confirming that the
requested actions would not jeopardize endangered
species—the federal defendants issued the final ROD.
Pet. App. 9a. The final ROD included approvals by
BIA, OSMRE, and other federal agencies for the continued operations of the Navajo Mine and the Plant,
with substantial environmental protection measures.
Pet. App. 8a-9a.
2. Almost a year later—after Navajo Transitional
Energy and APS already had undertaken significant
investments in reliance of the federal approvals—
petitioners filed their complaint, “challenging the opinions
and approvals that authorized continued operations at
the [Navajo] Mine and the Power Plant.” Pet. App.
10a. As requested relief, petitioners asked the district
court to set aside the ROD and to vacate the federal
approvals. Id. Petitioners also asked the district court
to enjoin the federal defendants “from authorizing any
elements of the Project pending their compliance with
NEPA.” ER69; Pet. App. 10a. If the approvals were
set aside and the requested injunctive relief were
granted, both the Navajo Mine and the Plant would be
required to initiate closure procedures and to discontinue operations until the completion of another full,
multi-year NEPA review.
Given the potential impact of petitioners’ requested
relief on the on-going operations of the Plant, APS
intervened in support of the federal defendants. Pet.

13
App. 10a. Navajo Transitional Energy also intervened
for the limited purpose of moving to dismiss under
Rules 19 and 12(b)(7). Pet. App. 11a.
D. Lower Court Decisions
Under Rule 19(a), a party is “required” and must be
joined in an action, if feasible, when (1) the party has
a legally protected interest in the subject matter of the
action, and (2) the party’s interest “as a practical
matter” might be impaired or impacted if the action
were to proceed in its absence. Fed. R. Civ. P.
19(a)(1)(B). If the joinder of a required party is not
feasible—such as where a party cannot be joined due
to sovereign immunity—Rule 19(b) requires a court to
“determine whether, in equity and good conscience,
the action should proceed among the existing parties
or should be dismissed.” Fed. R. Civ. P. 19(b).
1. Here, after careful review, the district court granted
Navajo Transitional Energy’s motion to dismiss under
Rule 19 based on its determination that NTEC was a
required and indispensable party. In applying Rule
19(a), the district court first had no trouble concluding
that Navajo Transitional Energy—acting as an arm of
the Navajo Nation—had a legally protected interest in
the subject matter of petitioners’ action to set aside the
ROD and void the approvals needed for the ongoing
operations at the Navajo Mine and the Plant. Pet. App.
37a. Among other things, the district court observed
that petitioners’ requested relief would invalidate
Navajo Transitional Energy’s “interests in its lease
agreements and the ability to obtain the bargained-for
royalties and jobs.” Pet. App. 37a (internal citation
and quotation marks omitted). The district court also
found that, if successful, petitioners’ “challenges to
Federal Defendants’ actions—which the continued
operation of the Navajo Mine and [the Plant] are

14
conditioned upon—could simultaneously jeopardize
the solvency of the Navajo Nation and challenge the
economic development strategies it has chosen to
pursue.” Pet. App. 37a-38a. The district court determined that “[s]uch affronts to the Nation’s sovereignty
represent a legally protected interest” sufficient to
satisfy the standards of Rule 19(a). Pet. App. 38a.
Next, the district court concluded that the federal
defendants could not adequately represent Navajo
Transitional Energy’s interests in its absence. Pet.
App. 38a-39a. Citing the “sizeable investments” that
the Navajo Nation and Navajo Transitional Energy
had made in the continued operations of the Navajo
Mine and the Plant, the district court found that
the federal defendants lacked the same interests in
defending the approvals and resisting the requested
relief to set aside the ROD. Pet. App. 39a. Finally,
after holding that Navajo Transitional Energy could
not be joined because of its tribal sovereign immunity,
the district court determined that the action could not
“in equity and good conscience” proceed in the tribe’s
absence in view of its sovereign immunity and the
substantial interests at stake. Pet. App. 39a-42a.
2. Petitioners appealed. On appeal, petitioners
urged the Ninth Circuit to adopt a categorical rule that
“tribal sovereign immunity is not a sufficient basis for
dismissing public interest lawsuits against federal
agencies for violating NEPA and the ESA.” Pet. C.A.
Br. 20. Rejecting such an approach, the Ninth Circuit
unanimously affirmed the district court’s dismissal
under Rule 19 based on a careful review of the
particular facts of this case.
In affirming the district court, the Ninth Circuit
explained that whether a party has a legally protected
interest sufficient to be a “required” party under Rule

15
19(a) is a “practical” and “fact specific” inquiry, with
“few categorical rules.” Pet. App. 14a (quoting White
v. Univ. of Cal., 765 F.3d 1010, 1026 (9th Cir. 2014),
and Cachil Dehe Band of Wintun Indians of the Colusa
Indian Cmty. v. California, 547 F.3d 962, 973 (9th Cir.
2008) (Colusa)).
a. Applying the “fact specific” and “practical” inquiry
under Rule 19(a) to this case, the Ninth Circuit unanimously agreed that Navajo Transitional Energy—
acting for the Navajo Nation—had legally protected
interests that could be impaired in its absence. Pet.
App. 15a. In doing so, the Ninth Circuit affirmed that
an absent party generally “has no legally protected
interest at stake in a suit merely to enforce compliance
with administrative procedures.” Pet. App. 14a (quoting Colusa, 547 F.3d at 971). Where such a suit would
impair bargained-for contracts or take away existing
legal entitlements or rights, however, longstanding case
law “makes clear” that an absent party may have
legally protected interests under Rule 19(a). Id.
Here, after carefully examining the facts of this case
and the nature of petitioners’ requested relief, the
Ninth Circuit followed those precedents and determined that Navajo Transitional Energy had legally
protected interests under Rule 19(a) in the challenged
approvals for the ongoing operations. Pet. App. 15a18a. Among other things, the Ninth Circuit noted that
“the litigation could affect already-negotiated lease
agreements and expected jobs and revenues” and that
“the Navajo Nation would lose a key source of revenue
in which NTEC has already substantially invested” in
reliance on the approvals. Pet. App. 18a. The
Ninth Circuit also agreed that no other party could
adequately represent Navajo Transitional Energy’s
interests because the Navajo Nation had vital

16
sovereign interests implicated in the action, and the
federal defendants had different overriding interests
that might diverge from Navajo interests. Pet. App.
21a-23a. In reaching those conclusions, the Ninth
Circuit specifically distinguished other precedents
involving Indian tribes under Rule 19(a), stressing
that Indian tribes may not always be required parties
in cases affecting their interests and holding that
Navajo Transitional Energy was a required party based
on the facts of this case. Pet. App. 17a-23a.
b. After concluding that Navajo Transitional Energy
was a required party under Rule 19(a) and that its
joinder was not feasible due to tribal sovereign
immunity, the Ninth Circuit turned to the inquiry
whether the action could proceed “in equity and good
conscience” in the tribe’s absence under Rule 19(b).
Pet. App. 25a. In undertaking that inquiry, the Ninth
Circuit weighed the equitable considerations prescribed
under Rule 19(b), including the potential prejudice to
the absent party and the availability of other potential
remedies. See Fed. R. Civ. P. 19(b)(1)-(4) (prescribing
nonexclusive list of equitable factors). As to potential
prejudice, the Ninth Circuit found that the action
threatened critical sovereign interests for Navajo
Transitional Energy and the Navajo Nation, observing
that “at stake is an estimated 40 to 60 million dollars
per year in revenue for the Navajo Nation, as well as
its ability to use its natural resources how it chooses.”
Pet. App. 26a. The Ninth Circuit ultimately did not
decide whether petitioners would have an adequate
remedy under Navajo law in Navajo courts, deciding
that dismissal was proper even if there was no
other alternative remedy. Pet. App. 27a-28a; see also
Republic of Philippines v. Pimentel, 553 U.S. 851, 867
(2008) (“where sovereign immunity is asserted, and

17
the claims of the sovereign are not frivolous, dismissal
of the action must be ordered where there is a
potential for injury to the interests of the absent
sovereign”).
c. Finally, the Ninth Circuit considered the argument that the “public rights” exception applied to the
facts of this case. Pet. App. 28a. As the Ninth Circuit
observed, the “public rights” exception to Rule 19’s
normal joinder requirements applies only in limited
cases where the requested relief is “narrowly restricted
to the protection and enforcement of public rights[.]”
Nat’l Licorice Co. v. Nat’l Labor Relations Board, 309
U.S. 350, 363 (1940). For the limited “public rights”
exception to apply, “the litigation must not destroy the
legal entitlements of the absent parties.” Kescoli v.
Babbitt, 101 F.3d 1304, 1311 (9th Cir. 1996) (internal
citation and quotation marks omitted). Where an
action seeks relief that creates threats to “the absent
tribes’ legal entitlements, and indeed to their sovereignty,” the “application of the public rights exception
to the joinder rules would be inappropriate.” Shermoen
v. United States, 982 F.2d 1312, 1319 (9th Cir. 1992).
Looking at the facts and relief requested in this
case, the Ninth Circuit held that the “public rights”
exception did not apply because petitioners sought “to
destroy NTEC’s existing legal entitlements” to operate
the Navajo Mine and to maintain the existing contracts related to the Plant. Pet. App. 31a-32a. Unlike
other cases where the litigation was tailored to avoid
harm to the interests of absent parties, the Ninth
Circuit observed that “the activities approved by the
Record of Decision here are already taking place” and
that Navajo Transitional Energy and the Navajo
Nation would lose existing legal rights to continue

18
operations on which they had already relied to make
substantial investments. Id.
Based on those case-specific considerations, the Ninth
Circuit unanimously agreed with the district court
that this case could not proceed, “in equity and good
conscience,” under Rule 19 without Navajo Transitional
Energy. In so holding, the Ninth Circuit observed that
the legally protected interests at stake were tied to the
Navajo Nation’s “very ability to govern itself, sustain
itself financially, and make decisions about its own
natural resources.” Pet. App. 23a.
3. Petitioners subsequently petitioned for rehearing
en banc. No judge requested a vote to hear the petition,
and rehearing was denied.
REASONS FOR DENYING THE PETITION
The decision below was correct, and it does not
conflict with any decision of this Court or of another
court of appeals. Rather than announce some new
approach to joinder under Rule 19 in APA cases
involving tribal interests, the Ninth Circuit applied
the established, case-specific framework mandated
under Rule 19 to the particular facts of this case.
There is nothing novel about the analysis, there is no
circuit split, and further review is not warranted.
I. The Decision Below Is Correct
To start, there is no merit to petitioners’ assertion
that the decision below is a departure from other
precedents under Rule 19. In their efforts to spark
interest in this fact-bound case, petitioners make significant overstatements about the holdings of the decision
and invent a circuit split that does not exist.
1. Joinder requirements under Rule 19 serve “to
protect interested parties and avoid waste of judicial

19
resources.” Askew v. Sheriff of Cook County, Ill., 568
F.3d 632, 634 (7th Cir. 2009) (internal citation and
quotation marks omitted). In evaluating a motion to
dismiss for failure to join a party under Rule 19, the
Ninth Circuit—like every other court of appeals—
applies a “fact specific” and “practical” analysis that
ultimately turns on the equitable considerations at
issue in the particular case. Kescoli, 101 F.3d at 1309;
Pimentel, 553 U.S. at 863 (“the issue of joinder can be
complex, and determinations are case specific”); see
also, e.g., Baker Group, L.C. v. Burlington N. & Santa
Fe Ry. Co., 451 F.3d 484, 491 (8th Cir. 2006) (“Rule
19(b) is a pragmatic rule whose application turns
on considerations of efficiency and fairness in the
particular case.”).
That familiar analysis is what the Ninth Circuit
applied here. The inquiry under Rule 19 first asks
whether an absent party is a “required” party that
must be joined if feasible. Fed. R. Civ. P. 19(a). As
the decision below recognized, an absent party may
be “required” if that party has a “legally protected
interest” at stake in the subject matter of the suit. Pet.
App. 14a (quoting Colusa, 547 F.3d at 971). To qualify
as a legally protected interest under Rule 19, an interest
“must be ‘more than a financial stake.’” Id. (quoting
Makah Indian Tribe v. Verity, 910 F.2d 555, 558 (9th
Cir. 1990)). Generally, there also is “no legally protected
interest at stake in a suit merely to enforce compliance
with administrative procedures.” Id. (quoting Colusa,
547 F.3d at 971). An interest in the terms of a bargainedfor contract, however, may be legally protected where
that interest is “substantial.” Id. An absent party also
may have a legally protected interest at stake where an
action seeks relief that would invalidate or impair
that party’s existing legal rights or entitlements. Pet.
App. 15a-17a (listing cases); Confederated Tribes of

20
of Chehalis Indian Reservation v. Lujan, 928 F.2d
1496, 1499 (9th Cir. 1991) (“Indian tribes are necessary parties to actions affecting their legal interests.”).
If a legally protected interest exists—and if the
action may, “as a practical matter,” impair or impede
the party’s ability to protect that interest, Fed. R. Civ.
P. 19(a)(1)—Rule 19(b) next asks whether the action,
“in equity and good conscience,” should proceed without
the absent party or, instead, be dismissed. Pet. App.
25a; Fed. R. Civ. P. 19(b). As the decision below
recognized, among other equitable factors, Rule 19(b)
directs courts to consider the potential risk of prejudice
to the absent party and the availability of alternative
remedies for the plaintiff. Pet. App. 25a; Fed. R. Civ.
P. 19(b)(1)-(4). Although courts consider all equitable
factors prescribed under Rule 19(b), it is well established that tribal sovereign immunity “itself may be
viewed as the compelling factor.” Pet. App. 26a
(quoting Kescoli, 101 F.3d at 1311); see also Pimentel,
553 U.S. at 867 (“dismissal of the action must be
ordered [under Rule 19] where there is a potential for
injury to the interests of the absent sovereign”). Indeed,
because of the importance of the right of sovereign
immunity, “virtually all the cases” are in favor of
dismissal under Rule 19(b), “regardless of whether [an
alternative] remedy is available, if the absent parties
are Indian tribes invested with sovereign immunity.”
Pet. App. 26a (quoting White, 765 F.3d at 1028); see,
e.g., Am. Greyhound Racing, Inc. v. Hull, 305 F.3d
1015, 1025 (9th Cir. 2002) (“interest in maintaining
[the absent party’s] sovereign immunity outweighs the
plaintiffs’ interest in litigating their claims”); Fluent v.
Salamanca Indian Lease Auth., 928 F.2d 542, 548 (2d
Cir. 1991) (“[t]he rationale behind the emphasis placed
on immunity in the weighing of rule 19(b) factors is . . .
the fact that society has consciously opted to shield

21
Indian tribes from suit without congressional or tribal
consent”).
Following those longstanding precedents under
Rule 19, the decision below correctly concluded that
dismissal was proper under the facts of this case.
Although petitioners repeatedly claim that this suit
sought only “prospective” relief and did not seek “to
cancel or to modify any contract” (Pet. 3, 8, 13), that is
not correct. As the Ninth Circuit found, in moving to
set aside the final ROD and to undo the already-issued
approvals, petitioners’ requested relief sought to take
away Navajo Transitional Energy’s existing legal right
to continue operations at the Navajo Mine, and to void
the Navajo Nation’s existing lease and rights-of-way
agreements. Pet. App. 18a. In seeking to invalidate
those legal and contractual rights, petitioners’ suit
threatened “a key source of revenue” for the Navajo
Nation, in which it “already substantially invested” to
advance critical sovereign interests. Id. Petitioners’
requested relief also would overturn “already-negotiated
lease agreements and expected jobs and revenues” for
the Navajo Nation from the ongoing operations. Id.
2. In challenging the Ninth Circuit’s application of
Rule 19 to these facts, petitioners fail to address the
legal interests of Navajo Transitional Energy in any
way, much less explain why those interests are not
substantial. Instead, petitioners baldly assert that the
decision below “is a departure from ordinary rules
applicable to actions” challenging federal decisional
processes under the APA. Pet. 14. But APA cases are
not exempt from Rule 19’s joinder requirements—and,
tellingly, petitioners fail to cite even a single case in
support of such a position. No court has eschewed the
normal, case-specific approach to joinder under Rule
19 in this context, nor has any court adopted a

22
categorical rule that federal defendants always are the
only required defendants in APA challenges. In
addition to wrongly focusing on only the nature of the
plaintiff’s claim—as opposed to the nature of the
absent party’s interests under Rule 19—such a rule
would be entirely inconsistent with the case-by-case
approach that Rule 19 mandates.
3. In seeking a different result, petitioners also
argue that the decision below is erroneous because,
according to petitioners, the Ninth Circuit should have
concluded that the federal defendants could adequately
represent Navajo interests in this case. Pet. 15, 29-30.
In making that argument, petitioners claim that
there is no potential for differences between the legal
positions of the federal defendants and Navajo
Transitional Energy because both have interests in
defending the final ROD. Pet. 16. Petitioners again,
however, disregard the specific facts and reasoning of
the decision below.
In applying Rule 19(a), the Ninth Circuit recognized
that, in cases where an existing party will adequately
represent an absent party’s interests in the action, “an
absent party’s ability to protect its interests will not be
impaired” as “a practical matter” to require joinder.
Pet. App. 14a (quoting Alto v. Black, 738 F.3d 1111,
1127 (9th Cir. 2013)). Thus, in circumstances where
the government’s interests and an Indian tribe’s
interests are identical in nature and are not in conflict,
the government may adequately represent an Indian
tribe’s interests, and the tribe is not a required party
under Rule 19. Pet. App. 19a-22a; see, e.g., Southwest
Center for Biological Diversity v. Babbitt, 150 F.3d
1152, 1154 (9th Cir. 1998) (holding same).
Here, however, the Ninth Circuit distinguished
those circumstances and correctly found that the

23
federal defendants’ overriding interests were fundamentally different in nature from those of the Navajo
Nation and Navajo Transitional Energy. Although
the federal defendants share “an interest in defending
their own analyses that formed the basis of the
approvals,” those defendants also are obligated to
represent the broader interests of the public, and
they “do not share an interest in the outcome of the
approvals—the continued operation of the Mine and
Power Plant.” Pet. App. 22a (italics in original); see
also, e.g., Trbovich v. United Mine Workers of Am., 404
U.S. 528, 539 (1972) (recognizing that such competing
interests “may not always dictate precisely the same
approach to the conduct of the litigation” to allow
adequate representation). For the Navajo Nation and
Navajo Transitional Energy, in contrast, a loss of the
existing legal rights to operate the Navajo Mine and to
maintain the current lease and rights-of-way agreements would have potentially devastating impacts—
threatening the very solvency of the Navajo Nation, its
control over its own natural resources, and its ability
to govern and provide vital public services and support
for its people, among other things. Pet. App. 22a-23a.
Rather than address those divergent interests, petitioners argue that the Ninth Circuit should have
simply discounted the Navajo interests as irrelevant.
Pet. 16, 29-30. But the decision below was rightly not
so dismissive. Because of the different nature of the
federal interests at stake, it is entirely foreseeable that
the federal defendants would not approach this action
with the same vigor to protect Navajo interests—
or would take different positions on the proper legal
standards governing the approvals, or the proper
remedy for any identified violations. Pet. App. 22a.
Indeed, the federal defendants failed to even appear
at all in the proceedings before the Ninth Circuit.

24
Although the United States appeared as an amicus
curiae, its brief reflected a very different outlook than
Navajo Transitional Energy. Among other things, in
flat contradiction of the undisputed factual findings
about the serious risk of irreparable harm to the
Navajo Nation and the Navajo people, the United
States as amicus curiae asserted that invalidating the
approvals for the Navajo Mine and the Plant would
“not necessarily [cause] long-term prejudice to the tribe.”
U.S. Amicus Br. 16. The United States as amicus
curiae also asserted that vacatur of the approvals
would leave the Navajo Nation and Navajo Transitional
Energy “in a state no different from that in which
[they] would have found themselves had the agency
never taken the challenged action in the first place,”
in disregard of the substantial Navajo investments
already made in reliance of the approvals. Id. at 9.
Those positions—and other case-specific facts—show
the different interests of the federal defendants in
this case and confirm that those defendants could not
adequately represent the crucial Navajo interests.
4. Petitioners fare no better with their half-hearted
challenge to the Ninth Circuit’s application of the
“public rights” exception to Rule 19’s joinder requirements. Pet. App. 16, 30. Rather than apply in every
case implicating some public concern, the public-rights
exception arises only in cases where the requested
relief is “narrowly restricted to the protection and
enforcement of public rights,” such that there is no
need for joinder rules to protect the interests of absent
parties. Nat’l Licorice Co., 309 U.S. at 363. For the
exception to apply, “the litigation must transcend the
private interests of the litigants and seek to vindicate
a public right.” Kescoli, 101 F.3d at 1311. In addition,
“although the litigation may adversely affect the

25
absent parties’ interests, the litigation must not destroy
the legal entitlements of the absent parties.” Id.
(citation and quotation marks omitted); see also, e.g.,
Kettle Range Conservation Group v. United States
BLM, 150 F.3d 1083, 1087 (9th Cir. 1998) (for publicrights exception to apply, the absent “parties [must be]
left free to assert such legal rights as they might have
acquired” (quoting Nat’l Licorice Co., 309 U.S. at 366,
alteration in original)).
Petitioners do not contend that the Ninth Circuit
misstated the test for the “public interest” exception.
Pet. 16, 30-31. Instead, petitioners argue only that the
court should have applied the exception to allow the
action to proceed without any representation of Navajo
interests—asserting that, if petitioners were successful
in invalidating the approvals, that would mean that
the “approvals were issued in violation of the law” and
so there never was any legally protected interest in the
approvals. Pet. 16. But that “kind of circularity” in
reasoning disregards the very purpose of Rule 19’s
joinder requirements. Am. Greyhound Racing, Inc.,
305 F.3d at 1024. Rule 19 serves “to preserve the
right of parties to make known their interests and
legal theories,” ensuring that those interests are
not destroyed in an adjudication without full and fair
representation. Keweenaw Bay Indian Comm. v.
Michigan, 11 F.3d 1341, 1347 (6th Cir. 1993) (internal
quotation marks omitted); see also Shermoen, 982 F.2d
at 1317 (Rule 19 protects “a party’s right to be heard
and to participate in adjudication of a claimed interest,
even if the dispute is ultimately resolved to the detriment of that party”). Petitioners fail to identify a
single case applying the “public interest” exception to
Rule 19 where private rights are threatened—and no
case exists.

26
5. Finally, there is no merit to petitioners’ claims
that the decision below announced some broad new
rule under Rule 19 that “private litigants are
foreclosed from challenging federal agency action that
benefits entities that cannot be made parties to an
APA action or other actions seeking relief only against
the federal government.” Pet. 12. Far from stating
such a rule, the decision below was based on the
specific facts of this case and the critical sovereign
interests at stake. The Ninth Circuit repeatedly has
found that Indian tribes, or other absent parties, are
not required parties in APA actions under different
facts. See, e.g., Alto, 738 F.3d at 1128 (holding BIA
could adequately represent interest of absent tribe in
APA challenge to disenrollment decision); Makah, 910
F.2d at 559 (Indian tribe was not required party in
APA action to compel federal defendant to follow
certain procedures in setting future fishing quotas);
Northern Alaska Environmental Ctr. v. Hodel, 803
F.2d 466, 468-69 (9th Cir. 1986) (absent party not
required in APA litigation to enjoin approval of
pending mining plans until compliance with NEPA).
Rather than overrule those precedents, the Ninth
Circuit cited them with approval and distinguished
this case based on its facts and requested relief. Pet.
App. 15a-17a. Although petitioners complain that
applying Rule 19’s joinder requirements to APA
actions involving tribal interests will foreclose review
in some cases, that is an ordinary and predictable
consequence of sovereign immunity. See Wichita &
Affiliated Tribes of Okla. v. Hodel, 788 F.2d 765, 777
(D.C. Cir. 1986) (“society has consciously opted to
shield Indian tribes from suit without congressional or
tribal consent”). Petitioners show no legal error.

27
II. There Is No Circuit Split
Petitioners also are wrong that the decision below
creates a new split among the circuit courts. None of
the cases cited by petitioners conflicts with the decision
in this case; instead, the cited decisions apply the same
case-specific test for compulsory joinder under Rule 19
to their different facts.
Citing Thomas v. United States, 189 F.3d 662 (7th
Cir. 1999), petitioners first assert that the decision
below creates a new split with the Seventh Circuit.
But even a cursory review of the major factual differences between the cases shows that there is no conflict.
In Thomas, 189 F.3d at 668-69, the Seventh Circuit
found that a tribal governing board was not a “required”
party under Rule 19(a) in an APA challenge to the
federal administration of a tribal election. Accepting
that tribes generally have an interest in matters
affecting their membership, the Seventh Circuit
explained that the tribal board there nevertheless had
no sovereign interests in the election process because
the governing statute in the circumstances at issue
“explicitly reserve[ed] to the federal government the
power to hold and approve” the election. Id. at 667.
As a result, the board had “no special legal status”
related to the election not held by any other group
of tribal voters. Id. at 668-69. In this case—in sharp
contrast—there is no dispute that the Navajo Nation
has vital sovereign interests and legally protected
rights at stake.
Although petitioners insist that Thomas would come
out differently in the Ninth Circuit as a result of the
decision below (Pet. 18), that is plainly incorrect. In
Alto, 758 F.3d 1111, the Ninth Circuit considered facts
analogous to Thomas and similarly concluded that an
absent tribe was not a required party. Specifically,

28
Alto involved an action to challenge a tribal member
disenrollment decision by BIA. Although member
disenrollment decisions ordinarily implicate tribal
sovereign interests and would require joinder of the
tribe, the Ninth Circuit held that joinder was not
required under the facts of the case because “[t]he
Tribe itself [had] delegated its authority over enrollment to the BIA” and, thus, it had no sovereignty
rights at issue. Id. at 1129. The decision below cited
Alto and affirmed its reasoning. Pet. App. 20a-21a.
There is no conflict.
Petitioners also claim that the decision below creates
a new split with the Tenth Circuit, citing Kansas v.
United States, 249 F.3d 1213 (10th Cir. 2001), Sac and
Fox Nation of Missouri v. Norton, 240 F.3d 1250 (10th
Cir. 2001), and Manygoats v. Kleppe, 558 F.2d 556
(10th Cir. 1977). Again, that is not correct. Rather
than resulting from any differences in the legal tests
under Rule 19, the different outcomes in each of those
cases turn on their different facts.
In Kansas and Sac & Fox Nation, the Tenth Circuit
concluded that absent tribes were not required and
indispensable parties under Rule 19 in actions challenging federal decisions to designate certain lands as
“Indian lands” under the Indian Gaming Regulatory
Act, 25 U.S.C. § 2701 et seq. Rather than adopt some
rule that federal defendants always are the only
required and indispensable parties in APA actions
challenging federal actions, the Tenth Circuit applied
a case-specific analysis under Rule 19 in each case. In
Kansas, the Tenth Circuit held that the action could
proceed as an equitable matter without the absent
tribe under the facts of the case because “the potential
for prejudice . . . is largely nonexistent” due to the
presence of tribal officials in the action in addition to

29
the federal defendants. 249 F.3d at 1227. In Sac &
Fox Nation, the Tenth Circuit similarly concluded that
an absent tribe was not a required and indispensable
party based on the facts of the case, including the
“virtually identical” interest of the federal defendant,
and the tribe’s participation at all stages of the
litigation expressing complete agreement with the
federal defendant. 240 F.3d at 1258-59. Notably,
unlike this case, neither of those cases involved
challenges to take away rights to continue operations
at existing casinos, or to invalidate existing contracts
for such operations.
In Manygoats, the Tenth Circuit applied the same
case-specific analysis. In that case, the Tenth Circuit
held—similar to this case—that federal defendants
could not adequately represent an absent tribe’s interests in an action challenging federal approval under
NEPA of a contract for mining exploration on tribal
trust lands. Manygoats, 558 F.2d at 558. Despite
finding that the absent tribe was a required party with
legally protected interests, however, the Tenth Circuit
ultimately held that the action still could proceed “in
equity and good conscience” without the absent tribe
under Rule 19(b). Id. at 558-59. That equitable
determination hinged on the fact that the tribe was not
currently engaged in mining activities and, thus,
further review and delay did “not necessarily result in
prejudice” to the tribe. Id. at 558-59. Here, in sharp
contrast to those facts, the Navajo Nation and Navajo
Transitional Energy already are engaged in the
challenged activities, with existing legal entitlements
that would be impaired. The different outcome in
Manygoats was based on the different equitable considerations at issue, and it was specifically cited in the
decision below. Pet. App. 21a.

30
There also is no conflict with the D.C. Circuit.
Petitioners rely on Ramah Navajo School Board, Inc.
v. Babbitt, 87 F.3d 1338 (D.C. Cir. 1996). In that case,
the D.C. Circuit held that absent tribes were not
required and indispensable parties in an action
challenging a federal agency’s plan for disbursing
certain funds to tribes. Rejecting the federal agency’s
argument that the case could not proceed under Rule
19 without the absent tribes, the D.C. Circuit held that
the absent tribes lacked any legally protected interests
in the funds because of undisputed facts showing that
future benefits to the tribes “would be negligible” and
“most definitely” would not result in any higher funding
levels in contracts. Id. at 1351. The court went on to
find that the federal defendant also could adequately
represent the absent tribes’ interests, if any interests
existed, because there was no discretion in the disbursements and each tribe would receive an “estimated pro
rata share amounting to less than $100.” Id. at 135152. The Ramah decision, like the decision below, was
based on specific facts of the case. Most notably, unlike
the critical sovereign interests at stake in this case,
the absent tribes in Ramah had no legally protected
interests impaired in the challenged disbursement plan.
Finally, petitioners argue that the decision below is
“in tension” with two other cases—School District of
Pontiac v. Secretary of the U.S. Department of Education,
584 F.3d 253 (6th Cir. 2009) (en banc), and Jeffries v.
Ga. Residential Fin. Auth., 678 F.2d 919 (11th Cir.
1982). Those cases, however, also employ the same
case-specific analysis under Rule 19 as the Ninth
Circuit’s decision—and there are no conflicts.
In Pontiac, 584 F.3d 253, the Sixth Circuit considered
whether certain states were required and indispensable
parties under Rule 19 in an action challenging certain

31
funding requirements of the No Child Left Behind Act,
20 U.S.C. § 6301 et seq. In concluding that the states
were not required parties, the Sixth Circuit determined that the states had no legally protected
interests in play because the states merely “act as
intermediaries through which federal funds flow to
local schools” to fund the statute’s initiatives. Id. at
265-66. The court also summarily concluded that the
existing parties would adequately represent the
states’ interests to the extent that the states had any
interests. Id. at 266-67. That case differs entirely
from the facts and requested relief at issue in this case,
which threaten the solvency of the Navajo Nation and
involve critical sovereign interests.
The decision in Jeffries, 678 F.2d 919, is similarly
inapposite. In Jeffries, the Eleventh Circuit applied a
case-specific analysis under Rule 19 to consider whether
absent landlords were required and indispensable
parties in a class action challenging certain eviction
regulations related to public housing. In holding that
the presence of the landlords was not required, the
Eleventh Circuit found that the case related solely to
the rights under the governing statutes, and the
relevant state housing authority had sole authority
over eviction decisions. Id. at 929. Because no legal
entitlements of the landlords were at issue, the court
also concluded that the public-interest exception
would apply in any event. Id. In contrast to Jeffries,
petitioners’ requested relief here would nullify the
existing legal rights of the Navajo Nation and Navajo
Transitional Energy to operate the Navajo Mine
and maintain lease and rights-of-way agreements,
threatening vital sovereign interests.
All circuits agree with the case-specific and practical
approach to Rule 19’s joinder requirements that the

32
Ninth Circuit applied in its decision here. Petitioners
have shown no legal error, and there is no new circuit
split.
III. This Case Is a Poor Vehicle for Review
Finally, even if this Court were interested in
addressing Rule 19 in the context of APA claims
despite the absence of any legal error or circuit split,
this case is not the proper vehicle to do so.
The legal rights at issue in this case are essential to
the Navajo Nation and its ability to govern and serve
the Navajo people. Rather than affect only a future
development plan, the challenged approvals concern
existing operations at the Navajo Mine and the Plant
that have been a vital part of the Navajo economy for
many decades, generating a full third of the Navajo
Nation’s general fund. It is hard to imagine a case
with more important sovereign interests at stake,
or with greater risks for serious prejudice from
uncertainty. Given those issues, this case is not the
appropriate vehicle to consider challenges to Rule 19’s
joinder rules, and the petition should be denied.

33
CONCLUSION
The petition for a writ of certiorari should be denied.
Respectfully submitted,
SARA KOBAK
Counsel of Record
AUKJEN T. INGRAHAM
BRIEN J. FLANAGAN
SARAH ROUBIDOUX LAWSON
SCHWABE, WILLIAMSON &
WYATT, P.C.
1211 SW Fifth Ave., Ste. 1900
Portland, Oregon 97204
(503) 222-9981
skobak@schwabe.com
Counsel for Respondent
Navajo Transitional
Energy Co. LLC

